£X^/

VIRGINIA:
Jn the Supreme Cowtt of Virginia held at the Supreme Cowtt Studding in the
Citg of {Richmond on Sudag the 2Cth dag of Mwtch, 2C20.

Antwon Gairrio Whitten,
against

Appellant,

Record No. 190683
Circuit Court No. CL19-336

Harold W. Clarke, Director,
Virginia Department of Corrections,

Appellee.

From the Circuit Court of Stafford County

Upon consideration of the record and the pleadings filed in this case, the Court finds that
assignment of error no'. 3 is insufficient as it does not address any finding or ruling of the circuit
court or any failure of the circuit court to rule on an issue in Antwon G. Whitten v. Harold W.
Clarke, Director of the Virginia Department of Corrections, Circuit Court No. CL 19-3 3 6, from
which an appeal is sought. Accordingly, the petition for appeal is dismissed as to that
assignment of error. Rule 5:17(c)( 1 )(iiiJ.
Upon further consideration whereof, the Court refuses the remaining assignments of
error.
The rule to show cause previously entered herein is discharged.

A Copy,
Teste:
Do
By:

u/las B. Rdb'elen, Clerk

l
Depjaty^Ck rk

VIRGINIA:
Jn the Supneme Count of, Vutginia held at the- Supneme Count {Building, in the
Citg of- {Richmond on. 5tuvu>dag the 29th dag of Cluguat, 2019.

Antwon Gairrio Whitten,
against

Appellant,

u Record No. 190683
Circuit Court No. CL19-336

Harold W. Clarke, Director,
Virginia Department of Corrections,

Appellee.

From the Circuit Court of Stafford County
On August 5, 2019 came the appellant, who is self-represented, and filed a
“motion for leave to amend his petition for habeas corpus.”
Upon consideration whereof, the Court denies the motion.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

(35^2
Deputy Clerk

VIRGINIA:
Jn the Supreme Count of Virginia held at the Supreme Count {Budding in the.
City, of ^Richmond on Mondag, the 24th dag of &ehnuang, 2020.
Antwon Gairrio Whitten,
against

Appellant,

Record No. 190683
Circuit Court No. CL19000336-00

Harold W. Clarke, Director,
Virginia Department of Corrections,

Appellee.

From the Circuit Court of Stafford County

On September 9, 2019 came the appellant, who is self-represented, and filed a “motion
for reconsideration for leave to amend petition for habeas corpus” in this case.
Upon consideration whereof, the Court denies the motion.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

VIRGINIA:
Jn the Supneme Count of Vinginia held, at the Supreme Count Studding, in the
City of Jlichmondon Wednesday, the 22nd dag.of fanuang, 2020.
Appellant,

Antwon Gairrio Whitten,
against

Record No. 190683
Circuit Court No. CL19000336-00

Harold W. Clarke, Director,
Virginia Department of Corrections,

Appellee.

From the Circuit Court of Stafford County
\

On November 25, 2019 came the appellant, who is self-represented, and filed a motion to
amend in this case.
Upon consideration whereof, the Court grants the motion and the amendment is
considered filed.

A Copy,
Teste:
Douglas B. Robelen, Clerk

By:
Jty^Clerk

Additional material
from this filing is
available in the
Clerk's Office.

